,)
.;,...
  :::;   . )   ,....-,.,.




  ""'i
                       HOME HEALTH AIDE SERVICES

                         FOR MEDICAR PATIENTS




RICHAD P.   KUSSEROW                                SEPTEMBER   1987
INSPECTOR GENERAL

Control # OAI-02-86-00010

                         :.                        . .. .


                             TABLE OF CONTENTS



EXECUTIVE SUMYlARY .                                    .i

INTRODUCTION                                          . 1




MEDICARE PATIENTS' NEEDS FOR SOME KEY
HOME HEALTH AIDE SERVICES ARE NOT BEING MET



STANDARDS NOT PROVIDED:                               . 9




PROBLEMS AND BEST PRACTICES
IN PROVIDING HOME HEALTH AIDE SERVICES



RECOMMENDATIONS        4J.
                                                    . 20



APPENDIX I:    HIGHLIGHTED HISTORY OF INTEREST
               IN HOME HEALTH ISSUES                . 22



APPENDIX II:   PROFILE OF REVIEW AND METHODOLOGY    . 24



APPENDIX III: EFFECTIVE STATE STANDARDS             . 25



APPENDIX IV:   HCFA COMMENTS                        . 27
                          EXECUTIVE SUMY

 PURPOSE

                   services.
           This inspection was initiated to assess the
 strengths and weaknesses of existing Medicare standards for
 home health aide
 BACKGROUND   Covered health and personal care services
 provided to eligible patients at home are reimbursed under
 Medicare. These services include skilled nursing, physical,
 speech and occupational therapy, medical social services and
 services provided by home health aides , including personal
 care.  They must be ordered by a physician and provided
 through a Medicare- certified home health agency.
                                                    Coverage by
 Medicare is also dependent upon a homebound patient'

 for the part-time or intermittent services of nurses sand

                                                        need

 other skilled professionals.   The coverage of home health

 aide services is contingent upon the need for skilled

 professional services.
 Medicare reimbursement to nearly 6 000 certified home health

 agencies (HHA' s) for all services in 1985 was about $2

 billion. By 1990 , as many as 2. 2 million patients will be

 receiving home health visits , and as many as 30 percent of

 those visits will be made by home health aides at a cost of
 about $750 000 000.   Aides will continue to spend triple the
 amount of time in a patient' s home as skilled professionals.

In order for an HHA to participate in the Medicare program

it must meet the Conditions of Participation.
standards , set forth in 42 CFR 405. 120Iff , coverThese

                                                     such areas

as organization , administrative accountability, financial

planning and budgeting, recordkeeping, the provision of

health services and quality assurance procedures.


Section 42 CFR 405. 1227 outlines the single Medicare

Condi tion of Participation and two standards that home care

agencies must meet concerning home health aide
                                                  services.

Section 1861 (m) (4) of the Social Security Act requires home

heal th aide services provided to Medicare patients to be

 part-time or intermittent" and also requires home health

aides to have " successfully completed a training program

approved by the Secretary.


The certification of HH' s is carried out by the Health Care

Financing Administration (HCFA) through the efforts of State

survey agencies. Home care agencies must be licensed in

States which require such licensure.
METHODOLOGY    site visits were made to seven States
throughout the country. In each State , discussions were held
wi th home health agency and vendor administrative personnel
State surveyors and licensure personnel , supervisory visiting
nurses ,home health aides , Medicare patients , physicians , and
representatives of labor unions , educational institutions and
home care industry agencies. A total of 62 Medicare patients
and 44 home health aides were visited in the patients ' homes.

A sample of medical records from each home health agency was

obtained and reviewed by skilled medical professionals on the

inspection team. Additional data were collected. (see
Appendix II for  details).
MAOR FINDINGS:
       MEDICARE PATIENTS' NEEDS FOR KEY HOME HEALTH AIDE

       SERVICES AR NOT BEING MET

            A review of patient records revealed that where
            the plans of care called for specialized services
            in support of the duties of skilled nurses or
            physical therapists , the aides failed to
            document , and perform , half of these tasks. The
            non- performance of these tasks deprives the
            Medicare patient of the full benefit of the home
            care program, and could result in a patient not
            realizing full rehabilitation potential , or in a
            patient' s condition worsening to the point where
            re-hospitalization is required.

           Since the Medicare program is already paying for

            visi ts of sufficient length
                                       to accommodate more
           specialized services of aides , the Medicare
           program is paying for aide services not rendered.
           We found that poor supervision of aides is the
           main reason for the failure to provide ordered
           care.  Substantial weaknesses were noted in the
           orientation of aides to the needs of patients by
           supervisory nurses and in the supervision given
           to the aides in the patients' homes.

           The review of patient records also revealed that
           home health aides always delivered prescribed
           personal care services , such as helping patients
           with baths , care of mouth, skin and hair
           assisting them to the bathroom or in use of bed
           pans and preparing meals for them.

           The aide is viewed as a personal care giver.

           This perception contributes to the failure of

           aides to provide specialized services.

            Serious problems were noted with agencies ' use of
            home health aides under contract. These include:
            Medicare patien vulnerability to substandard
            practices and services which are unnec ssarily
            time consuming, frequent and costly.
 II.   STANARS NOT     PROVIDED

            The Medicare Condition of Participation for home
            heal th aides lacks standards for recruitment
            hiring and training. The standards for
            assignment of aides and supervision do not
            provide sufficiently objective criteria. As a
            result, state agencies responsible for surveying
            home health agencies for compliance with the
            Condi tion of Participation find the survey
            process difficult to perform effectively. Many
            States provide standards with specific criteria
            for the training of home health aides , although
            these standards vary with regard to training
            curriculum length and content.
            Improvements in Medicare standards are needed to
            upgrade the quality of care provided by aides
            and to assure the cost-effectiveness of the
            estimated $650 million Medicare will pay for
            aides ' services in 1988.
            Low priority is placed by states on home health
            surveys.  This limits the size of survey staffs
            as well as the numer of surveys performed.
III.   PROBLEMS NOTED WITH AGENCY PRACTICES IN EMPLOYING
       AIDES

            Recruitment ,   hiring and retention of home health
            aides are maj or problems for many agencies which
            offer low pay and limited benefits. These
            agencies do not attract the most reliable
            employees and experience a very high turnover
            rate.
            other agencies, however , assure effective
            selection and retention of aides by offering many
            incentives , including good pay, benefits and
            paraprofessional status.
MAOR RECOMMNDATIONS AN AGENCY COMMNTS
       The Health Care Financing Administration (HCFA) should

       direct state survey agencies , through training

       programs And written instructions , to review selected


                               iii
         plans of care and the corresponding patient medical

         records to assure that all prescribed tasks are

         performed and documented by home health aides.

         Training and instruction of state surveyors is

         essential to assure that the Condition of

         Participation for aides is satisfied.


         The HCFA agrees with this recommendation and will take

         steps to accomplish this.

 II.
   The HCFA should assure that required home visits are

        made by state surveyors. The criteria for conducting

        the home visit program should be reevaluated to assure

        that the program can be effectively carried out within

         existing budget I imi tations.
        The HCFA indicates that all states have been provided
        wi th additional and adequate resources to conduct
        required HH home    visits.
III.
   The HCFA should encourage states without specific

        state regulations on the training of home health

        aides to develop a curriculum for training home health

        aides , or adopt an existing curriculum. Completion of
        an established training program should be a

        prerequisi te of a home health aide position.


        The HCFA agrees with this proposal and is developing a
        revision to the Medicare Conditions of Participation
        which will strengthen requirements for home health
        aide training and supervision.
IV.     The HCFA should revise those sections in the Health

        Insurance Manual for home health agencies and fiscal

        intermediaries (FI' s) which deal with services

        provided by home health   aides. The revisions should
        distinguish between personal care services and those
        services representing extensions of skilled care
        indicating that all tasks in the plans of care , are
        expected to be performed by aides during each
        visit.
        The HCFA will consider including in the Home Health

        Agency Manual and the State Operations Manual a

        section which indicates that HCFA considers it to be a

        significant health and safety breach if the HHA is not

        insuring that the home health aide provides the

        services ordered on the plan of treatment.

The HCFA should revise the Home Health Agency Coverage
Compliance Review instructions to FI' s.  Revised
instructions should expand the points to be addressed
by the FI' s during onsite reviews to include
comparison of aide tasks specified in plans of care
with aide tasks performed , to assure that plans of
care tasks for aides are fully implemented.

The HCFA will consider including an instruction in the
Coverage Compliance Review Program (Part   A'
Intermediary Manual) which will address this    concern.
Full HCFA comments are included in Appendix IV.
                           INTRODUCTION
Covered health and personal care services provided to

eligible patients at home are reimbursed under Medicare.

These services include skilled nursing, physical , speech and

occupational therapy, medical social services and services

provided by home health aides , including personal care. They
must be ordered by a physician and provided through a

Medicare- certified home health agency. Coverage by Medicare
is also dependent upon a homebound patient' s need for the

part-time or intermittent services of nurses and other

skilled professionals.  The coverage of home health aide
services is contingent upon the need for skilled

professional services.
Medicare reimbursement to nearly 6 000 certified home health

agencies (HRA' s) for all services in 1985 was about $2

billion. By 1990 , as many as 2. 2 million patients will be

receiving home health visits , and as many as 30 percent of

those visits will be made by home health aides at a cost of
about $750 000  000.  Aides will continue to spend triple the
amount of time in a patient' s home as skilled professionals.

In order for an HRA to participate in the Medicare Program
it must meet the Conditions of Participation.
standards , set forth in 42 CFR 405 . 1201ff , coverThese
                                                      such areas
as organization , administrative accountability, financial
planning and budgeting, record keeping, the provision of
health services and quality assurance procedures.

Section 42 CFR 405. 1227 outlines the single Medicare
Condi tion of Participation and two standards that home care
agencies must meet concerning home health aide services.
Outlined in summary form below , they include the following

requirements:
     Hirinq - aides are able to read , write , and carry out
     directions, and are mature and capable enough to deal

     with sick patients.
     Training- aides are carefully trained in assisting
    patients to achieve maximum self-reliance.


    Assiqnment of Duties - aides are assigned specific

    duties by  a registered nurse.
    Supervision - aides are closely supervised by a
    registered nurse or other professional staff every two

    weeks.
The regulation also identifies tasks which home health aides
are trained to perform and duties which they may be assigned
by a registered nurse. The regulation does not always define
tasks and duties, such as " personal care" , but they may be

grouped into three categories and include the following:


     Personal Care Services   Helping patient with bath, care

     of mouth , skin and hair. Helping patient to bathroom or

     in using bed pan. Changing patient' s bed linen.
     Assisting with meal preparation and household services
     essential to health care at home to maintain a clean,
     healthful and pleasant environment. Completing
     appropriate records.
     Extension of Skilled Nursina Services     Assistance with
     medications  that are ordinarily self- administered
     simple exercises , specific treatments , clinical
     observations and nutrition. Reporting changes in the
     patient' s condition to the supervising nurse.
     Completing appropriate records.

     Extension of Rehabilitation Services   Assistance with

     ambulation and exercises as an extension of skilled

     therapy services. Reporting changes in the patient' 

     condition to the supervising nurse or therapist.

     Completing appropriate records.

Section 1861 (m) (4) of the Social Security Act requires home

health aide services provided to Medicare patients to be

 part-time or intermittent" and also requires home health

aides to have " successfully completed a training program

approved by the Secretary.


The certification of HRA' s is carried out by the Health Care

Financing Administration (HCFA) through the efforts of State

survey agencies. Home care agencies must be licensed in

States which require such licensure.
                     FINDINGS

        MEDICAR PATIENTS' NEEDS FOR SOME KEY
     HOME HEALTH AIDE SERVICES AR NOT BEING MET
 Plans of Care Not Being Followed


All 62 patient records reviewed contained plans of care
which called for aides to perform tasks representing
personal care services; 85 percent of the plans also
called for aides to perform tasks which represented an
extension of nursing or rehabilitation services.
Examples of the tasks found in plans of care in support
of nursing services included the following: - assisting
with dialysis; diabetic monitoring (urine testing);
catheter care; foot soaks; special skin care;
observation and notation of changes in respiratory
condi tion; encouraging intake of fluids; recording
intake and output of fluids; taking of temperature
pulse and respiration with readings noted. For
rehabilitation , it was noted that aides were often asked
to help with exercises , transfers to and from bed and
ambulation training as taught by the physical therapist
and recording progress in activities of daily living.

 A comparison of the 62 aide plans of care with

 corresponding aide activity sheets revealed that

 prescribed personal care tasks were always documented as

having been performed. However , in 48 , or 91 percent

 of the 53 cases where extensions of skilled services

were prescribed, one or more tasks were
                                                  not documented

by the aides as having been performed. In half of these
cases , one or more of those tasks were never
documented; in the other hal f, one or more of those
tasks were only occasionally documented. Overall
nearly           half of the prescribed extension tasks expected
to have been performed during more than 1, 600 aide
visits were not documented.

Responses from both patients and aides support the
conclusion that all personal care tasks were actually
performed. Responses also support the conclusion that a
lack of documentation indicates that the extension tasks
were not performed by the aides.
Since the services provided by home health aides as an

extension of nursing or rehabilitation services are

intended to be a continuum of skilled care , failure to

provide the services deprives the patient of the full

benefit of the home care program. A patient who has a

therapy treatment twice a week without any aide-assisted

  practice" between skilled visits may not achieve

 her/his full rehabilitation potential as quickly, if at

,all. When key obsexvations are not made by an aide or
 are not noted for the nurse , the patient' s condition may
worsen , and skilled treatment essential to the patient'
 recovery might not be started.
Special treatments assigned to aides, such as foot soaks
or special skin care , if not performed, could lead to
serious skin deterioration. In cases of this kind
patients may require re-hospitalization.

To gain an insight as to why so many aide tasks were not
documented and apparently not performed, the inspection
team made follow-up contacts with supervising ' nurses and
administrati ve personnel of a number of HRA' s which had
been previously visited. The consensus of these
respondents was that the primary and continuing cause of
the problem was the lack of orientation of aides by
supervising nurses to patient cases and tasks as well as
the lack of ongoing onsi te supervision of aides by

professionals. One    respondent said:
     "The start- up visit is essential in every
     single case to introduce the aide , give the
     case plan and demonstration of tasks. The
     supervision every two weeks must be onsite
     with the aide.
Another respondent indicated that extension tasks were
not performed by aides because they are usually alone
with patients and lack confidence without the proper
support of skilled professionals. She said:

     "The aide may be fearful of doing a procedure
     if they are not shown it specifically. They
     are aware they might hurt a patient and get
     into trouble if they do it wrong ... The
     therapist or nurse must meet with the aide in
     the home and show them what should be done.

One respondent said that the assignment of multiple
aides to the same patient precluded  supervision.  Nurses
cannot orient and supervise multiple aides effectively,
nor assure uniformly effective performance of tasks.
She also said that it was a good practice to have aides
present at patient conferences with skilled
professionals , but that practice was discontinued at her
agency.
 other causes cited by respondents included deficiencies

 in aide training, especially in the area of documenting

 tasks performed. It was noted that since many aides

 lack language skills to articulate tasks performed, many

 agencies frequently have aides use a checklist to

 identify those tasks.


Maioritv of Undocumented Tasks Were Assianed to Vendor

Aides
Medicare requires HH' s to meet all standards for home

health aide services , whether or not the services are
provided directly or under contract. The HHs' must
assure that vendors they contract with also meet the
Medicare standards for aide services.

Among the 44 home health aides providing services to the

62 patients , 15 were -emvloyees of vendors contracting

wi th six of the 16 HRA' s , and three were under direct

contract to a seventh HRA. Over one-half of the aides
were employees of 12 HRA' s (three also contracted for
some aide services and fall into both groups). The
chart below summarizes the documentation of extension
tasks by both groups of aides for the 48 patients
visi ted.

                                 Assigned                      Undocumented
 Aides        Patients visits      Tasks                           Tasks
                          939      022 (tasks per                   , 070
Contract                         patient X visits)

                          663      760                               771
 Staff
                          602      782                           841 (49%)

Vendor Aide   Visits   Tend To Be Lon    Fre   ent And Costl



The average length of visit for the first group of 18
aides was 2. 6 hours, while the second group of 26 aides
spent an average of 1. 8 hours on each visit. Three
HH' s in one Eastern State , where contracting for aide
service is prevalent , allow vendor aides to spend as
much as 4 hours on each home visit. Staff aides of the
other HH' s spend under 2 hours per visit. Vendor
aides. also average more visits per week than staff
aides.   Because of high turnover among aide staff
vendors try to place aides on cases for longer periods
of time with minimal travel. In addition , labor union
agreements affecting many vendor aides make it costlier

per hour to place those aides in a patient' shome for
less than three hours.  For example, one union
agreement with a vendor stipulates that aides will be

paid $1 more per hour on visits of under three hours.

Lack Of Control Over Vendor Aides Makes   HH Patients
Vulnerable To Substandard Practices


In 1985 , 6 of the 16 sample HH' s in three Eastern

States contracted with 18 vendors for all or part of the

nearly 150 000 home health aide visits provided to

Medicare patients. Of those total visits , 72 percent

were made by vendor aides the six HH' s did not recruit,
hire, train or assign to patient  cases.   These HH' s
assured vendor aides complied with standards in various

and often effective ways. In addition , it was found
that vendors ' deficiencies discovered by some HRA' s were
not reported to Medicare authorities and were not always
corrected. One HH conducted 1984 and 1985 annual
audits of one of its vendors. Out of 165 aide personnel
files audited, 211 deficiencies were  found.   Areas of
deficiency included physical exams , health tests and
immunizations , references , and in-service training.
Out of a small sample of 15 Medicare patients and vendor
aides visited by the inspection team in three Eastern
States, there was one case where the aide did not arrive
at the patient' s home when expected; the patient was a
wheelchair-bound amputee on dialysis who lived alone.
Another problem case involved a vendor aide who did not
show up at the patient' s home as scheduled for four
days.  Nei ther the vendor nor the BR was aware of it
until the patient complained. Some State surveyors and
supervisory nurses said this occurs frequently.

Supervision of Home Health Aides Is Found to be

Inconsistent And Ineffective. Especiallv When Multiple

Aides Visit The Same Patient


The previously noted comments on poor supervision were
supported by the inspection team s observations during
the study.  Weaknesses were noted in the areas of aide
orientation and on-the-job training for individual
patients by supervisory nurses. How supervision is to
be carried out is not specified by Medicare regulations
al though registered nurses must make supervisory visits
every 2 weeks , with or without the aide s presence.
Many supervising nurse and agency respondents believe

that aide orientation and on-the-j ob training for

specific patients , when conducted by supervising nurses

is the only effective way to assure that all prescribed

tasks are properly performed.


There was evidence that aides were given an orientation
by the supervising nurse on the first aide visit in only
22 percent of cases reviewed. This orientation
introduces the aide to the patient and family, and
allows for discussing the home environment and reviewing
the plan of   care.Demonstrations of tasks are given by
the nurse followed by return demonstrations by the aide.
orientation is considered more important when prescribed
aide tasks include extensions of skilled services.

When HRA' s and vendors substitute aides on patient
cases , the supervising nurse visits do not effectively
serve the purpose     intended.
                              Orientation to the patient
and on-the-j ob training should be repeated for each
aide , but often are not. One nurse supervising vendor
aides said:
     "Ideally we will be there at the aides ' first

     visit to orient her to the tasks. If   not
     possible, I could make a telephonecall. I
     always make an effort to be onsi te the first
     time to teach the aide , but the aide changes
     and I can't always go in every
     frustration! "
                                    time. It is
A senior agency official of one of the HRA' s advised
that " rotation of aides" was based on assigning the more
experienced aides to new problem  cases.  However, a
vendor official with more direct involvement in
assignment of aide staff to the HH' s patients advised
that part-time vendor aides paid an hourly rate are
usually taken off cases to give work to vendor full-time
aides who are salaried. A common complaint from ex-
patients of this agency is "too many different aides.
Documentation in two-thirds of the patient cases
indicates supervising nurse visits were not made when
the aide was present. Medicare regulations do not
specify that the aide must be present. One nurse
emphasized the importance of coordinating supervisory
visits with aides when she said:

     "At least once a month there should be onsite
     supervision while the aide is in the home.
     Personally, I wouldn t want to be responsible
     for an aide if I didn't see her performance.
Although some nurses expressed difficulty coordinating

their visits with the aide in the home , many felt it was

essential to good care.


Aides Are Perceived As primaril v Personal Care   Workers
We learned from our discussions with patients , aides and

supervising nurses , that home health aides are generally

perceived as " caring companions" whose most important
functions are to keep patients clean, lend emotional

support to patients and family and provide some

housekeeping services. Expectations for aides seldom

encompass duties to assist patients in achieving maximum

self- reliance.
Eighty percent of all patient , aide and nurse

respondents identified personal care , especially

bathing, as the most important service aides provide.

Emotional support of patients and families ranked as the

second most important service provided by aides. Where
family members lived with patients , aide visits were

seen as providing a needed respite from looking after

the patient. While the third-ranking service according

to patients and aides was housekeeping, the third-

ranking service in the view of nurses was the extension

of either nursing or rehabilitation services.

One agency utilized aides primarily for providing

 limited personal care services , regardless of the need

of its patients for other services aides are normally

expected to provide. All four patients from this agency

had plans of care calling for " personal care and bath"

only; two of the four patients had received physical

therapy, but the aides ' plans of care in those cases

did not call for any tasks in support of the
rehabilitation services. The Registered Physical
Therapist member of the inspection team felt that an
extension of rehabilitation services by the aides in
these cases was appropriate and would have been
beneficial to the patients. Aides indicated that this
agency also does not allow them to do housekeeping, meal
preparati n or shopping. Such services may be covered
by Medicare and appropriate for specific patients.
Where aides did not carry out the tasks considered
extensions of skilled services , the length of visits did
not appear to be a major factor. In    those cases , aide
visits were as brief as 45 minutes and as long as 4
hours , averaging about 2 hours per visit , usually a
suff icient time to complete assigned tasks.   Medicare
fiscal intermediaries routinely reimburse agencies for
aide visits assuming all tasks were performed as
prescribed in plans of care.
               STANARS NOT PROVIDED
Medicare Reaulations For Home Health Aides Are Not

Adequate
Surveyors in 11 of the 12 States contacted view Medicare

regulations as barely adequate , or even inadequate , in

helping them do their job. A typical complaint was that

Medicare regulations "have too many gaps and are open to

too much interpretation.    others cited the lack of

training standards as a maj or weakness. "There' s a real
void in the Medicare regulations there!" said a surveyor

in a Western State. Another deficiency noted was the

lack of a standard for the selection of aides.

A review of the Medicare Condition of Participation for

home health aides and its two specific standards

indicates very few criteria. There are no specific

standards for the selection and training of home health

aides.  For example , the Condition states that aides
should be " carefully trained" , but it does not specify
curriculum content or length, or required classroom and

clinical hours , or the need for continuing (in- service)
education or on-the-j ob training.
In one of the two areas where the Condition does

establish a standard , which requires assignment of aides

to cases to be made only by a registered nurse , there

are no criteria which provide a basis for the assignment
such as patient needs and the abilities of specific
aides.  The other Medicare standard deals with aide
supervision. While it requires that a registered nurse
or other appropriate professional supervise the aide, it
does not specify that the aide must be present during
supervision.
Application Of Medicare Reaulations Is Subiective:

Guidelines Offer Limited Help


The decision by State surveyors as to whether agencies
meet the overall Condition of Participation is largely
left to the surveyor' s subjective judgment.
Consequently, while elements of the Condition (selection
or training of aides) or standards (assignment of duties
and supervision of aides) may be out of compliance
surveyors may still determine that the Condition is met.
The only enforcement power to assure correction of
specific deficiencies by non- compliant agencies is an
involved decertification process which is rarely used.
       Several surveyors indicated that HCFA' s interpretive

       guidelines for survey agencies offered them little help

       in applying Medicare regulations during the survey
       process.  Some criteria are provided for the assignment
       of aides to patients and there is a reference to
        continuing staff education" being provided to aides.
       But HCFA guidelines say nothing about how many failures
       to comply with elements or standards are permitted
       before the Condition of Participation is judged "Not
       met.   One surveyor indicated that failure to meet
       either or both standards would always be cited as

       deficiencies but would rarely be enough to find the

       Condition not met.

3 .	   Most States Contacted Have Their Own Reaulations; Thev
       Contain More Specific criteria For Trainina Aides Than
       Medicare Reaulations
       Of the 16 States queried , 11 said they had their own
       regulations. Most said that their regulations give
       surveyors some specific and objective criteria
       primarily in the area of training, to determine an
       agency' s compliance with Medicare regulations. (see
       Appendix III for listing). The following elements are
       significant:
       Course Curricula


       Training course length is specified in nearly all the
       States which have their own regulations , with the length
       ranging from 42 to 230 total hours. Five of the States
       wi th regulations require supervised clinical training of
       from 15 to 30 hours as a prerequisite to successful
       completion. Prior approval of home health aide training
       curricula is required by seven States. One State

       requires training through a uniform curriculum offered

       statewide by vocational-technical schools and regional

       communi tycolleges.   Another State requires training
       programs to be equivalent in content and depth to the

       National Homecaring Council' s "Model Curriculum.


       continuina Education


       Of the 11 States with their own regulations , the general

       need for continuing education is cited in five States

       while three other States specify that aides receive at

       least 12 hours of in- service training a year.

     Certification of Successful Completion

     A certificate attesting to successful completion of aide
     training is required in 6 of the 11 States with
     regulations , with 3 States' certificates reflecting
     State seals and approval of the training. In   one State,
     certificates are issued by the licensing agency directly
     to the aide with a certificate numer kept on permanent
     registry. The application for the certificate must come
     from the trainer and attest to the aide' s successful
     completion of a course approved by the State.

     Supervision

     regulations are the same as Medicare's.
     with regard to supervision, most of the State
                                               Only one State
     requires that a registered nurse provide direct
     supervision, i. e., while the aide is present, to the
     home health aide in the patient' s home at least every 2
     weeks.
     Since Federal regulations offer few specific criteria
     surveyors in the five States which do not have any State
     regulations experience difficulty when agencies contest
     findings of non-compliance. These States have developed
     internal procedures to compensate, e. g., recommending a
     particular training curriculum as one which meets the
     Medicare regulations. However, such recommendations do
     not carry the force of regulations and agencies are not
     compelled to comply with them. These surveyors
     indicated they must also spend more time and resources
     to assure compliance without the benefit of objective
     criteria. It  is much harder to assure that an aide is
      carefully trained" where States have no specific
     criteria mandating a curriculum , or where State
     regulations do not require prior approval of curricula.
     One surveyor in the East stated "It would make our job
     easier if we could simply verify that an agency uses
     aides that have been certified as passing a training
     program that is approved.
4.   Respondents Want More Specific Medicare Standards

     Virtually all the respondents queried, including all

     surveyors, agreed that having a nationally mandated

     training standard for home health aides would be useful.
     Several recommended wider use of the National Homecaring

     Council' s "Model Curriculum" developed in 1978 and used
     extensively around the country as the basis for many

       " . ..   ..."




 home health aide training programs. One survey nursing
 consultant said "It would make my job easier. It would
 improve the qual i ty of work produced , and assure more
 uniform practices from state to state.

The Chief of another state s Home Health Survey Section

recommended "Revisions to include specific criteria for
training, i. e.,numer of hours, curriculum content,
composition of faculty and credential requirements.


She also suggested modifying the current Medicare

standards for assignment and supervision of aides by

the:
            addition of the requirement for
       orientation of all Home Health Aides to the
       patient , family and thewritten instructions
       of duties.  Verification of Home Health Aides'
       competency to carry out instructions should be

       clearly documented in the patient' s clinical

       record
This individual further recommended that patient and

family orientation "be added to the responsibilities of

the registered nurse (RN) in the Conditions of

Participation. "
A State surveyor from a State without regulations
indicated that former Medicare regulations are still
used in that State as a guideline for compliance.
These former regulations established four Conditions of
Participation , including one each for home health aide
services , selection of home health aides , assignment of
duties and supervision. All the Conditions contained
some specific criteria to be met for compliance.

Effective A plication Of Medicare And State Reaulations

Are Limited Bv Other Problems


       Low prioritv for home health survevs limits survey

       staff and number of survevs performed


       We found that certified home health agencies are
       not usually resurveyed annually. Among the 16
       home health agencies visited by the inspection
       team in 1986, 1 was last resurveyed in early
       1986 , 5 in 1985 , 7 in 1984 , 1 in 1983 and 2 in
       1981. In fact, in    most sample States , resurveys
       are backlogged 1 to 4
       lack of resurveys are:
                              years.    The reasons for the
     Federal/state budget restrictions limit survey
     resources allocated for home health agencies.
     Most agencies are surveyed by one or two
     registered nurses , without other disciplines

     represented. One state survey agency had only

     three nurses available in 1985 to cover a

     growing numer of certified agencies
     nearly 300. One state agency official, now

     indicated:
    The principal problem is adaptation of the
    Federal budgetary process to state Agency
    practices. In recent years, budget cuts and
    time lag in approval of Federal funding for

    the program has all but eliminated 


    national planning for maintaining necessary

    staff and resources to carry out certification

    activities.
    Horne health agency recertifications are given
    the lowest survey priority by state agencies.
    The survey staff does give priority to
    agencies seeking Medicare reimbursement prior
    to certification. The dramatic increase in
    agencies seeking certification since 1981
    has heavily taxed state survey resources.
Survevs performed are limited bv loaistical

factors
Certified agencies' branch offices are not usually

visited on resurveys , although a sample of some

branch office patients may be reviewed as part of
a survey. This circumstance is due primarily to
two factors:
    The large size of some agencies. Some    have as
   many as 20 branch offices. These branch
   offices sometimes fall wi thin the survey
   jurisdiction of more than one of the State'
   regional survey offices.
   Branch offices are sometimes located hundreds

   of miles from the parent office , making it

   impractical and costly for a surveyor to visit

   them. These branch off ices might be sub-units
   and , as such , subj ect to independent
   certification , if criteria   for designating an
   office as a sub- unit were stringently   applied.
Trainina for state survevors has not emphasized

home health care


The HCFA training for new and experienced state
surveyors has traditionally been built around
institutional activity, i.  , hospitals , skilled
nursing facilities. Since the fall of 1985 , HCFA
training has been geared more specifically to home
heal th   care.
              Several survey agencies complained
about training and suggested remedial action.

One survey agency representative said:


       "Basic Training sessions for surveyors do

       not address the Home Health agency survey

       process. Training sessions for newly

       hired surveyors , to accommodate changes

       in state Agency personnel , are not
       readily available. Advanced training
       for home health agency surveyors is
       limited or non- existent.
Another surveyor said:
       "I recommend specific training in home

       heal th by HCFA centrally and through

       regional offices. There has not been

       enough emphasis on home care in past

       training.  There are currently 200

       certified home health agencies in this
       state and the number is growing. We need
       more staff and training.
Mandated home visits during survevs are not being

made
Home visits during state surveys , required by a
recent HCFA directive (November 1985), are not
routinely made to Medicare patients in 11 of the
12 States contacted.  Some limited experimentation
has been tried in several States , but generally

implementation is lagging because:


   The HCFA has not provided any additional

   funding for this activity.


   The HCFA criteria for implementation are
   extensive and scheduling visits could add
   more than a day to the survey process. For
   example , patient consent for the visit is
   required , and surveyor sample patients served
   by branch offices may be located far from the
   parent office of the agency.

   Many states are skeptical about the efficacy

   of home visits.

          PROBLEMS AN BEST PRACTICES IN PROVIDING
                 HOME HEALTH AIDE SERVICES


    Recruitment of Aides Is Costly To Many Aaencies;

    Competi tion for Desirable Workers Is Keen And Employee

    Turnover Is Hiah


    Forty percent of the home health agencies and aide
    vendor agencies contacted during the inspection have had
    maj or problems recruiting, hiring and retaining aides.
    The 10 agencies serve primarily urban and suburban areas
    in three Eastern states and one Southern State. six of
    the 10 agencies train the aides they recruit and hire
    while 4 agencies recruit aides already train d or
    utilize aides provided by vendors under contract.

    All 10 agencies recruit aides through the use of daily

    and/or weekly newspaper advertising, flyers distributed
    in local communities , church and merchant bulletin
    boards and word- of- mouth. Several agencies offer cash
    bonuses to aide staff for referring candidates. The

    cost of advertising is high and the number of

    respondents screened is much higher than those actually

    interviewed ,   trained or hired. One agency
    administrator  s statement is typical: "We have
    suspended recruiting because it was too expensive. Too
    many people didn't show up for employment interviews.
    One in twenty    came. Itwas too costly to do screening.
    Nonetheless , this agency has since returned to
    recrui ting aides for its staff because of great
    dissatisfaction with the performance of the aides
    prov ided by vendors.

    One vendor, which recruits and trains aides in a
    suburban area , screened nearly 1, 000 applicants over
    the last 3 years. After an extensive    and costly
    interviewing process , only 411 people were selected for
:   training; of that number, 324 aides were graduated and
    hired.  The maj or concern expressed by respondents
    about aides trained under these circumstances was the

    pressure agencies are often under to assign aides to

    patients when the aide' s ability and reliability are

    questionable.
 An agency administrator summarized the predominant view

 of respondents about the hiring and training of aides:
 "If the future will continue to see paraprofessionals

 doing more and more for patients , there must be higher

 standards for training and pay.


. One phenomenon affecting many of the agencies is the
movement of a segment of the workforce , made up of

mature women, to local employers such as fast food

chains. Many of these women are filling jobs previously

held by teenagers. Many of the people responding to

agency recruitment efforts tend to be looking for

transient employment. One vendor indicated that half

the aides they train and hire are single parents, some

on public assistance, whose reliability is affected by

day care and school schedules. Aide turnover rates of
from 20 percent to 50 percent annually have perpetuated

the recruitment problems of the 10 agencies , making

recrui tment a constant and costly process.
Agencies with Staffina problems Offer Few Incentives to

Assure Effective Selection And Retention Of Aides


Eleven agencies reported problems retaining aides

including the 10 agencies with recruiting problems. One
maj or characteristic of these agencies is that they

offer prospective aides the lowest wages and benefits

among all the 25 agencies contacted. Agency
administrators agreed this was the maj or reason for
hiring and turnover problems. A typical response was:
"Its hard to keep good aides because of poor pay and

lack of benefits.    In suburban and rural areas , the
aides must provide their own transportation , usually a
car, because public transportation is poor or
nonexistent. In   these cases , a valid license and fully-
insured car is also required. One vendor does not
reimburse its aides for transportation costs , while
others provide reimbursement for mileage between
patients' homes only.
Other disincentives , include:


    generally no pay during classroom training which may

    last up to 4 weeks.


    up to 6 months work for the agency or vendor before

    a certificate attesting to the aide' s successful

    completion of the required training is awarded.

    no upward mobility opportunities and extremely

    I imi ted hourly wage increases.
    work assignments in some urban areas which are
    considered dangerous with no additional compensation
    made for these assignments.
    little or no allowance for uniforms.


    agency treatment of aides as " second- class"
    employees rather than paraprofessional members of a
    home care team.

Other Aaencies Assure Effective Selection And Retention

Of Aides Throuah Best Practices


The practices of most of the remaining 14 agencies in
the sample group have resulted in effective hiring and
retention of aides   Incentives offered to prospective
employees have assured stable individuals and low or no
turnover.  Consequently, recruitment has rarely been a
problem. Several agencies have waiting lists of
prospective employees. Most of the agencies can afford
to be selective in filling occasional vacancies.


The practices of these agencies   include:
   hiring aides, already trained , who have up to 2

   years of patient care experience.


   offering wages or salaries which provide annual
   earnings of from $12, 000 to $18 000.

   providing extensive health insurance and sick and

   vacation leave benefits.
   reimbursing travel expenses at rates of $0.    18 to
   $0. 28 per mile , or the full cost of public
   transportation used.

   providing advancement opportunity through

   significant incremental wage increases for both

   length of service and effective performance.


   providing opportunities for positions of greater
   responsibility within the agency, and offering other
   incentives , such as tuition assistance programs to
   encourage continuing education in related health
   careers.
   acknowledging aides as important members of the

   interdisciplinary home , health care team.

Aaencv practices Limit Efficient Use Of Aide Staff


Agency and vendor administrators agreed that many
factors influence the assignment of aides to patients.
Al though a patient' s condition was frequently cited as a
main consideration , in practice most assignments appear
to have been made based on the availability of the
aide, the patient' s location and the aide' s access to
transportation. This was particularly true where
vendors provided aides under contract.
Most of the 25 agencies and vendors indicate they try to

assign the same aide to a patient for the duration of

the plan of care. However , a review of medical records

showed 42 percent of the patients had three or more

aides assigned to them over a period from 1 to 6

months. Vendors frequently substitute aides on cases
because of turnover and unreliability of their aide

staff.
Aaencv Policies and Practices Influence Lenath Of Aide

visi ts
Aides in six agencies indicated that the amount of time

spent with each patient was influenced by the agencies

policies. A proprietary agency in one Western state

requires all home health aide visits to Medicare

patients to be 2 hours, regardless of whether the needs

of individual patients require more or less time. One
aide from this agency
for certain patients.

                      said:  "Two hours is not enough

A proprietary agency in another Western State contracts

directly with individual aides and pays them on a per

visit basis. The aides stated that they spend about 30

to 45 minutes with each patient and see six to eight
patients per day.  Al though they provided personal care
services to their patients, including bathing, the

taking of temperature , pulse and respiration readings

and transferring the patient from bed , one aide said

that an hour was needed just to properly bathe patients.


Medicare Fiscal Intermediarv Policies Affect Agencv

Practices
Although HCFA policy directives are used by all fiscal
intermediaries (FI), respondents in seven States
indicated that FI application of policies varied both
wi thin States and from State-to-State. These policies
which have become more restrictive in recent years , have
influenced the length and frequency of aide visits
provided by most of the 16 agencies.  Respondents
indicated that services which will be reimbursed will
always be provided. Aide services that are frequently
denied, based on experience with FI decisions , will be
limited or not provided at all.
                         RECOMMENDATIONS

        The Health Care Financing Administration (HCFA) should
        direct State survey agencies , through training
        programs and written instructions , to review selected
        plans of care and corresponding patient medical
        records to assure that all prescribed tasks are
        performed and documented by home health aides.
        Training and instruction of state surveyors is
        essential to assure that the Condition of
        Participation for aides is satisfied.
 II.
   The HCFA should provide state survey agencies with

        administrative guidelines for assisting home health

        agencies in the selection, training, assignment and

        supervision of aides. This will prepare surveyors to

        during the survey process.
        help home health agencies correct deficiencies found


III.
   The HCFA should assure that required home visits are

        made by state surveyors. The criteria for conducting

        the home visit program should be reevaluated to assure

        that the program can be effectively carried out within

        existing budget limitations.
 IV.    The HCFA should encourage:


             states without specific state regulations on the
             training of home health aides to develop a
             curriculum for training home health aides , or
             adopt an existing curriculum. Completion of an
             established training program should be a
             prerequisite for a home health aide position.

             Organizations such as the National Homecaring
             Council , National Association For Home Care and
             the Joint Commission on the Accreditation of
             Hospi tals to work with their members to improve
             home health aide services through more effective
             training and supervision.

        The HCFA should revise those sections in the Health
        Insurance Manual for home health agencies and fiscal
        intermediaries (FI' s) which deal with services
        provided by home health aides.   The revisions should
        distinguish between personal care services and those
        services representing extensions of skilled care
        indicating that all tasks in the plans of care are
        expected to be performed by aides during each visit.
 VI.	
        Compliance Review instructions to FI' s.
        The HCFA should revise the Home Health Agency Coverage
                                                  Revised
        instructions should expand the points to be addressed
        by FI' s during onsite reviews to include comparison of
        aide tasks specified in plans of care with aide tasks
        performed , to assure that plans of care tasks for
        aides are fully implemented.
VII.	   The HCFA should review home health aide services
        provided under a contract to determine whether a
        limitation on such services would be appropriate, in
        view of the findings that aides under contract:

             did not perform the majority of extensions of

             skilled care tasks assigned to them;
             subj ected Medicare patients to substandard
            practices; and

            made visits which were unnecessarily time
            consuming, frequent and costly.
                              APPENDIX I
     HIGHLIGHTED HISTORY OF INTEREST IN HOME HEALTH ISSUES



In 1981 , studies of home health services under Medicare by
The General Accounting Office (GAO) and HCFA included
findings and recommendations related to home health aide
services. The GAO found that the use of aide services to
assist beneficiaries with personal care could be reduced
because either the beneficiary or family and friends often
could and would have provided the care required. The HCFA
identified overutilization of home health aide services
resul ting from Medicare fiscal intermediary misinterpretation
of utilization policy.

Legislative changes in Section 1861 (m) (4) of the Social

Security Act in 1980 required home health aides to have

 successfully completed a training program approved by the

Secretary. " The HCFA drafted a regulation which established

a training curriculum to meet the intent of   law.  That
regulation was never finalized and no training standard was

establ ished.
On October 19 , 1981, the Senate Permanent Subcommittee of
Investigations, chaired by Senator William Roth , followed an
investigation into home health services with a report.
Responding to concerns about home health agencies' practices
in providing many services under contractual arrangements the
Subcommittee recommended that nursing services and one other
service be provided only by employees of the   agencies.
recommendation was made to alleviate questionable
                                                         This
circumstances under which many agencies , characterized as
"brokerage houses" by the Subcommittee , had been providing
services.
In 1982 , HCFA advised the Subcommittee that its

recommendation would be reviewed. At the request of then
HCFA Administrator Davis , regulations were drafted addressing
the Subcommittee' s concerns as well as others HCFA had about
the Conditions of Participation for home health agencies.
Those regulations were never finalized , and home health
agencies are still permitted to provide many skilled and home
heal th   aide services under contract.
At recent hearings on "Home Care Quality" held by the House
Select Committee on Aging, testimony was presented which
highlighted a number of issues addressed in this  report.   The
Committee also released a report prepared by the American Bar
Association , entitled "The Black Box of Home Care Quality"
which addresses quality standards and systems for monitoring

the quality of care provided under Federal and state
Programs. The Chairman of the House Select Committee on
Aging, Representative Edward R. Roybal, sponsored a bill to
address home care quality problems the Committee has
identified. Among the reforms in the bill are

 administrative and judicial sanctions" for quality assurance
violations; the establishment by HHS of "training
requirements for all individuals delivering home care
                                   certification
services" ; and the development of "
requirements for homemakers, home health aides and personal
care attendants.

In April 1987, the Senate Special Committee on Aging, Senator
John Melcher, Chairman, held a hearing on "Home    Care:The
Agony of Indifference , the Role of the Older Americans Act in
Assuring Access to Quality Home Care.    Senator Melcher noted
in his opening remarks at the hearing his intention to find a
way to "insure quality home care to the millions of Americans
who need it.
                            APPENDIX II


               PROFILE OF REVIEW AND METHODOLOGY


The inspection included onsite visits in seven states

 (California, Connecticut , Illinois , New York, Pennsylvania
Tennessee and Texas) to 16 selected Medicare certified home
health agencies (BR'  s).   Visits were also made in three of
those states to nine aide vendor agencies with whom six of
the 16 HH' s contract for aide   services.   Discussions were
held with 194 respondents in these states and in five other
states  (Colorado, Iowa, Michigan , Minnesota and Ohio).
Information on state standards was also provided by Florida,
Iowa , Louisiana, Oregon and Virginia.
The 16 HH' s  consisted of 12 voluntary agencies , including
thre   hospital-based, and 4 proprietary organizations. Three
agencies primarily serve urban areas, while two serve
suburban areas; seven serve urbani suburban areas; three serve
urbani suburban/ rural areas; and 1 a rural area. The nine
vendors are primarily located in urban/suburban areas of
three eastern states and one southern state.

Respondents included HHA and vendor administrative personnel,
state surveyors and licensure personnel, supervisory visiting
nurses, home health aides, Medicare patients , physicians , and
representatives of labor unions , educational institutions and
home care industry agencies. A total of 62 Medicare patients
and 44 home health aides were visited in the patients ' homes.

Medical records from each HRA were, obtained and reviewed by
skilled medical professionals on the inspection     team.
                                                        The
records corresponded to active and discharged Medicare cases
selected onsite. Three active patients per agency were
selected for a home visit at a time when their home health

aide was present. A discharged patient from each agency was

also visited at home, where possible.


The remaining data included agency policies and procedures
concerning home health aides; personnel records of aides
interviewed; contracts with vendors providing aide services;
labor union agreements; state laws and regulations and other
standards concerning aides; and training curricula from state
agencies and public and private educational  institutions.
" ..




                                 APPENDIX III


                          EFFECTIVE STATE STANDARDS


       The following State standards are drawn from the 11 States in

       the inspection sample which have regulations for home health

       aide services. These standards are recognized by the

       inspection team as being effective in helping to assure that

       home health aides are capable of providing the highest

       quality services to Medicare patients.

                           Recrui tment and Hiring
       Trainees receive pav


       The State of Connecticut requires agencies to hire

       prospective home health aides before classroom training

       begins.  The agencies must provide aides with 10 hours of
       orientation to the  agency. During the orientation and 60
       hours of classroom training, agencies must pay the

       prospective aides minimum wage.


                                  Trainina
       Prior approval of training proarams


       Seven States require prior approval of training programs for

       home health aides: California, Connecticut, Illinois, Iowa

       New York , Oregon and Texas.
       Cl inical experience required in trainina proarams
       Five States' training standards require a minimum of from 15

       to 30 hours clinical experience before training is considered

       complete: California, Iowa , New York , Texas and Virginia.

       In New York, a graduate of classroom training is not deemed

       qualified to practice as a home health aide until clinical

       experience is completed. In California, home health aides do

       not qualify for state certification (attesting to successful

       completion of training) until all training requirements

       including clinical experience , have been met.

       Uniform statewide svstem for trainina


       The State of Connecticut requires that all approved training

       programs for home health aides are conducted by the State

       Department of Education , Bureau of Vocational Technical

       Schools or the Regional Community College program coordinated
       by the Matatuck Community College.
Recoanition of successful completion of training


Three states provide official state certificates attesting to
the successful completion of training by the home health
aide:  California, Connecticut and Illinois. In the two
latter states , certificates are issued by trainers/employers
but a record of certification is not maintained on any
permanent state registry.

In California , the Licensing and Certification Division of

the Department of Health Services issues certificates

directly to the home health    aides.Each aide receives a
certification number permanently assigned to the aide , and a

record of certification is maintained on a registry by the

 icensing agency.


Continuina (in-service)    education
Three States require employing agencies to provide a minimum
amount of annual in- service training for home health aides:
Connecticut , New York and Oregon.
                           Supervision
periodic and direct supervision of aides


The state of California , alone , requires that a registered

nurse provide direct supervision of the home health aide,
i. e. , while the aide is present , at least once every 2
weeks.
Ratio of supervisory nurses to home health aides


Three States mandate that a specific ratio exist between

supervising nurse and home health aide staff: California

Connecticut and Florida.
.) .





            APPENDIX IV





        HCFA COMMNTS

                                           .. '"
                                         &.;:.    .. - -
                                                      ";   :"'                                                   --.j-
",t"III-                                                                                    Heeltn C.re

           DEPARTTtE T Of HEALTH             HVMAI' SERVICES,                               Financing Adminis tra   ' n




                                             :t
                                                                                            Memorandu
                -i 2 3 S87                                 f.         I'",'-r:S
                                                                   "','
                                                                ' J.
 Dale
           William L. Roper, M.

 rlo.r,    Adinistrator                    VJtA
           Ole Drft Report " Hom Health Aide Services for Meca                           Patients
 Subject    (OA   -02- 86- 00010 )

           The Inspetor       General
           Office of the Seretay

           We have reviewed the         drft report on the \Ie
                                                           qulity of hom health aide
           services provided to         Meca patienta. appreiate the anlyais in the
           Ole report an are pleaed to report tht HCA is in the press of
           respoin. to two of the _jor coma cotain in the 010 report: the
           ne for bet ter traini of han heal th aidea: an imoved an IDre
           freuet han         visits by State        8ureYOr&.
           CA conts       apeific recmndtiona ar attahed for your
                             on the
           coideration. Th yo for the opprtunity to     on this report.           oat
           At   t.nt

                                                                                  . Ie
                                                                                   DIG



                                                                                   ADM
                                                                                   OGCIJG
                                                                                   EX SEC
                                                                                   DATE SENT              7/;,
',



                           of the Health Care       Finainl Adinistration
                on thE' OIG Draft Report. " Hom Heal t. Aide Service
                     for Meicare Patients " (Q,- 02-86- 00010)

     OIG Reomndation
     HCA should diret    State surey encies.           tJro
                                                     trinina prra an
     wri tlen intrutions. to review selecte plan of ca an the
     corrspondng patient meca rerd to assur tht Trininl all prescribe taks
                                                                an
     are perform an doc\.nte by hom heal t. aides. ..su   tht      cotion
         lrution of State sureyors ar essential to             the
     of paticipation for aides         is &atisfied.

     HCFA   Conts
     HCA aares tht      traininl an instrution of State aaency sureyors
     essential to   IUsure tht the ConcH tion of Plticipation for hom health
     aides is satished. HCA will          counication to all relional
                                           send a
     offices reuestini that they notify State ueniea to review aelecte
                                                                       hem
     heal tn aaency meical rerd an plan of treatmnt to usur tht all
     aides ' prescribe tak. ar perfonn an dol.nted: U ordere by the
     patients ' physician.
     HCFA will also continue to        ad88 clinical rerd review at all of its
                                               an will emphize acrutinization of
     traininl aessions for State aureyors
     aderence to  physicians ordrii wilh
              by, hom heal t. aidea.
                                                relpet to aervicea   reste of, an
     provide
     OIO Reomndtion
     HCFA should provide Stat          .uey
                                      &8encies with        adinist
                                                              tive auidelines

                                               1n t.e selection, t.raininl,
     for assistina home healt. 8.encies        (HH)
     as8i     nt an supervision of aides.        'nili will
                                                     prepare aureyors to help
     hom health agencies correl deficiencies           fou durina the surey pross.
     HCA    Conts                               an
                                              enforce Federal         relUlation
     ratherth
     The role of the surveyor is to ...ess
                 serve as a cosul t.t to a provider 1n correctina its
     deficienies. HH,     as with other        Meica an
                                                    HecHcaid providers.
     expte to thbe them.
                    aware of the prtra s health an aafety reuiremts an
     to oaply wi
     The interpreti ve auidelines uaed
     sureys of HH caot impoae aore 1"5t.rictive reui                 nta   th the
                                              by sureyor. to usi8t them in conduclina

     cotion of participation.
     It is tnl that a cotion     at.rdlevel.
                      .tard ororelemnt
                                        -.y be !lt even tho\C there is a
                                              Hover, this applies only
     deficiency at the 

     if the deficiency:
                                                        . -...                -. .        -.      - -   -- ....-...... -..



 Pae 2


                   Is not inconsistent with a 8tatutory                           requiremnt;
                   does not interfere wi t.               adequate patient               cae;
                   does not represent a                haza to patient. ' health an _fet:;;
                   is capable of beina                correte within a reonble period                                  of    tim;
                   is one       tht
                               the              in.U tulion is mainJ reuonble plan an efforts
                   to corret.; Uld


                   condi lion or 

                   the reui       rent8 

                                         .t.
                   is not out of ,eneral confonn ty with the 8peific
                                                   the be iM1n.
                                                        state at                                of
                                                                                                      lemnt& or the
                                                                                                   each section of

   If there i8 a deficiency, the                         HH also mut 8ubnit an aceptable plan of
  corretion befo                      1 t. Q&          o-rti fied or continue to be oert1 tied.
   OIG Re               ndti(                                                                    by State 8ureyora.
                             u.iNd h     h..l re                       vil1H. 8 1U8
   HCFA 8hould 


  The criteria for conduetinc lh
                                     vi.it pre.ra should be revaluated
   to assur t.            t. tht" pl"lIl'             Ca bi liff            u ve'1y     euried out
                                                                                                exi8tina wi thin
   buet            limi tat1oru.
   HCFA Conts
   As evidence of                HC'F'A I 5 
   bcU   f 1n      t.h. .f"f     l:v8ness of 8Un-'            "S I    all States
   have ben prO\'lct                  , wi t)'   adHh     N:l         .(Jureii to conduct MH hom visits.
   The              et.ed am .&lt$          for FYIi l       &G,    HU ' &h 1988 ar -.qute for the

   continue           req'.i                   visi t     by lute         uri;)'f'S.

    Prara data. with relard to worklea aopUahed, indcate tht in 

    1986 States weN: I"quiNd tJ in. l 3. 161 HA (53 percnt cover&e).

    States actually sur\' yt' 5, 001 HI (84 percnt coverae). a 58 percnt
    increase over the minimally aceptable          We have increed
    minimally aceptable cove e level fran 53 percnt to 75 percnt as
                                                                   the      t.et.
    refl ted in the Fi 1988
    ea                                            buet.
                                     Adequate Federal re80urB ar provided
                                                                       ooverae level..
              State to conduct                  reuire surey
                               t.., deopMr.  catl'
                                         an ou oriente
                                                                               1: Ab


                                                                                        ap        to au111.
                                                                                                 i.te or              OIid8e,
    a pat of the contrat, the current surey pross an form (includni
ptsa\.tta.



    hom visit procedures) ar to be reevaluated an revised. ThiB cotrat
    is       exteto be coplete in abut 12 8Oth.

    01 G Reonnd ti
    HCA shoud encoure States without speific State reJUatioh on the
    trainini of hom health aides to develop a curiculum for traininl hom
    heal th aides, or adopt an exiatina curriculum. Copletion of
    established trainina                    proar should be a prereisite of a han health
     aide            i tion.
\.                                          ..,
                 .:                           --

     HCFA       Conts
     HCFA is developing B
     Participation which
                                  ''. Jed
                                 11 s't
                               PA"'
                                             &4\o'   i&    u't-t ua"C a..d
                                                     en 'ruiremnlsIornome"he!'talde
                                              maer                                            ndtion
     trainini an
     an            Cfte
                        supervision in a
               which will        M.DA.             ....t..-
                                                which   dresses this
                                                              lcp.

                                                                                  curicuum.
                                                                                                tor
     lrainini       hom heal th aides or to adopt an established
     OICi      ReOlndtion
     HCFA shoud encourage Orlanizations such aa the                       Nationl Homina
     Council, National Association for                  Hom Ca
                                                 an tne Joint Caiaaion
     the Acrei taUon of Hospi tala to work wi t. their meberaauprviaion.
                                                              to imrove
     health aide aervices throuah more effective traini
 an

     HCFA Ccnts
     HCA routinely                              nationl or,anization for use
                          dissemnates informtion to
     in trainina provider
       of a.Nioes. HCA atafr have appared .. f\st
     speakers at lDet.i       s of Uie Amrica Health CaN! A8sociaUon 10 .hare
     infortion an data.          We   will ootinue to                  inl&in a workinl relationhip
     with these or,anizationli An will encoure thsm                           to work witi their
     mebers to imrove hom health Aide aervice..
         Reocnd ti
                                                                       th Insure Maual for HH
     OI   Ci

     HCFA ahould revise those aections in the Heal
     an fiacl intenn ari ea (iiI' a) whidiatinluiah
                                         oh deal                      wi lh
                                                    between personl cae
                                                                              aervioea provide by baD
     heal th aides. The revi8ion ahould
     services an those services representina extensions of akilled                          ca,
     inccatina tht all taks in the plan of            exted
                                                viai t.
                                              care are          to be
     perform by aides during eah
     Also, HCA should revise the Hom Health A,ency Coverae Calian Review
     instrotion to FI' 8. Revised instrutions should       the points to be
     adessed by FI' s durin onsi te review to include caison of aide
                                                                                ex
     taks speified in plan of
     plan of        ca                    ca
                                  with aide taks perform,
                 taks for aides ar fully implemnted.
                                                                                        to assur tht


     HCFA
     It ia not
                Conts
               clea to us whether 010 is
     Han Health A,ency Hrual
                                                          rena
                                                       tht HCA revise the
                               an the Cove e Coplian Review Pr&r
     require intermiaries to de paymt for hom health aide services when
     the aide provides ordere personl ca, but does not pro\'ide the
     exteion of skilled nurin      services which are ordere on the plan of
     treatmt. If so, we caot suprt                   ndtion beuse we do not
                                                          the

     believe there is a statutry kais for denyina Mecare p8)'mnt for a hom
     health aide visit where all cove   e criteria ar met, even if the aide
     did not provide som  of the aervices which were ordere on the plan of
     treatmnt.
     However, we would coider includna in the Hom Health Aaency Maual
     the State Oprations Maual, a section which indicates tht HCA coiders
     it to be a sianificat health an safety breach if the HH is not ensurin
     that the bCl beal th aide prvides the services ordere on the plan of
      tretmt.
                                                  ,,
II ,




       pae 4



                                                               the Coverae Coplian Review PrJra
       We a150 would consider including

       (Pat A Intermiary Maual), a
                                                         in

                                                        statent which       indcates   tht
       intennaries                   who beom
                                 aware of si tuationa in which the       health         han
       aide is not providinj all of the services            t.o be proided by the
                                                                     reuired
       aide in the plan of treatmnt,  ahould bri    the s1 tuaUon to the at.tention
       of the HCA              relionl
                            office. The                          be resposible for
                                                              relional office wold
       re\'iewi  the informtion  provided  by the                    intermiary, forwina
                                                                            it to
       the State ..ency, aM detennir'i                        the natur of the action to be taen
       the Stat. aaenc)'


               Renda t i on
                                           hc. health aide 8ervio.a provide wder a cotrat
       010

       HCA should review
       det.raine whet.er a limitation on luch                                 approriate.
                                                                  ser\'iceil wold be
       HCA  Ccnts                                                   will ,..01 ve the findna& of the
                                            prposed reJUlati
       We believe that the
       010 st\d            wi th          apet to .    rvi8ion of aidM .arv1oea t4ich       ar provide
       uner cotrat.
       General Con
       One of the probl    idehtitied in the rel rt (pae 18) 18 tht
       intermary applicaUan of pa!iey vuie!i boO.       w1t.hln States an fro
       State t.o State. lt is alht.ed th.t. lhvlit: poliCl.. have influe the
       lenth an freuency of aide viii ls provide.
       In October 1986, HCA bClCM Ulii""i7\/t"ea8silni                         freeeri        han heal th
       aaencies (HH
 ) to 10
     S1ent.     *:i                 efl int;
                                                           iarie8. These
                                                                     a180              ha
                                                                                                trafers
                                                                                                 ben
       will be capleted b     ' Septlt r I. 1987. A provoaed rule
                                             baed HH to the deaianted
       published to assisn/reassien provider.

       intermiaries. It ia anticipated that the reuction in consistency.
                                                             the n\Dber of
       intermaries procssi HH bills will lead to areter
       Since the desiintion of the 10 reJional intermiaries, HCFA ha ben
       worki with them to identify aras where incnsistent detennnation have
       ben mde. to arrive at proper determinations, an to ae tht in the
        futur the             auidelinea will be applied uniformy.
